April 2006
Report No. 06-013


FDIC Reserve Ratio and Assessment
Determinations




              AUDIT REPORT
                                                                                                                                                       Report No. 06-013
                                                                                                                                                              April 2006
                                       FDIC Reserve Ratio and Assessment Determinations

                                       Results of Audit

                                       Although the FDIC accurately calculated fund reserve ratios and assessments due from financial
                                       institutions, the Corporation did not periodically validate key assumptions used to allocate estimated
                                       insured deposits at Oakar institutions to BIF and SAIF. In particular, the FDIC historically assumed
Background and Purpose                 that 100 percent of Oakar secondary fund deposits were insured. Over time, that assumption became
                                       less representative of actual transactions.
of Audit
                                       After conducting a study (Study) and considering various options, the FDIC devised a new method
Historically, the FDIC maintained      for allocating Oakar estimated insured deposits that the Corporation determined was more
the Bank Insurance Fund (BIF)          representative of actual transactions. DIR conducted an analysis of how estimated insured deposits
and the Savings Association            would have been allocated had the new method been in effect since the beginning of 1997. DIR
Insurance Fund (SAIF) by               concluded that by September 2004, the new method would have resulted in just over $96 billion more
assessing institutions a semiannual    in estimated insured deposits allocated to BIF and correspondingly fewer estimated insured deposits
premium based on the institution’s     allocated to SAIF compared to the existing allocation method. In February 2005, FDIC formally
insured deposit amount and the         adopted the new method and elected to apply the new method prospectively without reallocating
degree of risk that the institution    estimated insured deposits between the funds.
posed to its respective insurance
fund.                                  The nature, timing, and application of the new method could have had a significant impact on the
                                       reserve ratios, and we concluded that the FDIC should have more fully: (1) informed the Board of
The Federal Deposit Insurance          the Study results and various alternatives considered and (2) involved the Board in the decision on
Act (Act) required the FDIC            whether, and how, to change the allocation method, including how to address the cumulative net
Board of Directors (Board) to set      effect (estimated at $96 billion) of not applying the new, more representative, allocation method
assessments only to the extent         earlier. FDIC officials involved in the Study indicated they operated under Board delegations of
necessary to maintain the              authority in adopting the new method and that they had briefed the FDIC Chairman and deputies to
insurance funds at the designated      the Board members before publicly announcing the change.
reserve ratio (DRR) of
1.25 percent of estimated insured      We recalculated BIF and SAIF reserve ratios and concluded that the more representative method, had
deposits.                              it been in effect at the time, would have caused the BIF to drop below the 1.25 percent DRR for a
                                       6-quarter period, starting in late 2001 and again in 2005. The Act generally required the Board to
The Act also required the Board to     take action to return the reserve ratio to 1.25 percent within 1 year.
maintain the BIF and SAIF
independently of each other which                                                          OIG Analysis of BIF Reserve Ratio
presented a challenge for the                                   1.40%

FDIC in allocating estimated
                                                                1.35%
insured deposit amounts for Oakar
institutions. Oakar institutions                                1.30%
                                                Reserve Ratio




resulted from a transaction in
which a member of one insurance                                 1.25%

fund acquired a member (or
                                                                1.20%
deposits) from the other fund,
known as the secondary fund.                                    1.15%
Most Oakar institutions resulted
from BIF members acquiring                                      1.10%
                                                                    Jun-01   Dec-01        Jun-02      Dec-02     Jun-03     Dec-03      Jun-04     Dec-04    Jun-05
SAIF deposits or institutions.
                                                                                      OIG Recalculation of Reserve Ratio Using DIR Simulation of New Method
The objective of our audit was to                                                     Reported Reserve Ratio
determine whether: (1) the
Division of Insurance and              In February 2006, the Congress passed The Federal Deposit Insurance Reform Act of 2005, which
Research (DIR) accurately              requires merging the BIF and SAIF insurance funds and eliminates the need for the FDIC to allocate
determines the funds’ reserve          Oakar deposits between BIF and the SAIF.
ratios and (2) DOF has adequate
controls in place to ensure that the   Recommendations and Management Response
FDIC accurately calculates,
collects, and processes                We recommended that the FDIC (1) periodically validate key assumptions, estimates, or other
assessments of financial               components that factor into the calculation of the reserve ratio; (2) review and clarify Board
institutions.                          delegations of authority related to the assessments determination process; and (3) evaluate procedures
                                       and practices for keeping Board members informed of Corporation matters and activities. FDIC
To view the full report, go to         management concurred with the findings and recommendations, and plans to submit to the Board
www.fdicig.gov/2006reports.asp         proposed revisions to policies, procedures, and delegations of authority by September 30, 2006.
                                TABLE OF CONTENTS
BACKGROUND                                                                   1
RESULTS OF AUDIT                                                             3
FINDINGS AND RECOMMENDATIONS                                                 4
CALCULATION OF RESERVE RATIO AND ASSESSMENT
DETERMINATIONS                                                               4
    Calculation and Reporting of Reserve Ratio                               4
    Calculation and Collection of Assessments                                5

THE FDIC’S PROCESS FOR ESTIMATING INSURED DEPOSITS                           6

     Oakar Institutions                                                      6
     Adjusted Attributable Deposit Amount                                    6
     Estimated Insured Deposits                                              7
     FDIC Efforts to Address Estimated Insured Oakar Deposit Differences     8
     Impact of New Allocation Method on Fund Reserve Ratios                  10
     DIR Process for Periodically Reviewing Key Assumptions and Estimates    12
     Recommendation                                                          13
     Corporation Comments and OIG Evaluation                                 13

BOARD MEMBER INVOLVEMENT IN, AND REPORTING OF, THE OAKAR
ESTIMATED INSURED DEPOSIT ALLOCATION ISSUE                                   14

     FDIC Board of Directors                                                 15
     Delegations of Authority                                                15
     FDIC Efforts to Communicate Issues to the Board                         17
     Communication of the Change in Methodology to the Industry and Public   20
     Recommendations                                                         21
     Corporation Comments and OIG Evaluation                                 22

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                                23
APPENDIX II: CORPORATION COMMENTS                                            25
APPENDIX III: MANAGEMENT RESPONSE TO RECOMMENDATIONS                         33

TABLES
Table 1: Reserve Ratio Determination and Assessment Rate Processes           2
Table 2: Selected Information About BIF and SAIF                             3
Table 3: Insured Deposit Estimates for a Hypothetical Oakar Institution      8
Table 4: DOF-Identified Differences in Oakar Insured Deposit Estimates       8
Table 5: Examples of Items Discussed in the November 15, 2004                18
         BIF and SAIF Rate Cases

FIGURES
Figure 1: DIR Analysis of Applying the New Method Historically               10
Figure 2: OIG Analysis of Reserve Ratios                                     11
ACRONYMS LIST

AADA            Adjusted Attributable Deposit Amount
AIMS II         Assessment Information Management System
AMS             Assessment Management Section
BIF             Bank Insurance Fund
CFO             Chief Financial Officer
CFR             Code of Federal Regulations
COO             Chief Operating Officer
DIR             Division of Insurance and Research
DOF             Division of Finance
DRR             Designated Reserve Ratio
FDI Act         Federal Deposit Insurance Act
FDICIA          Federal Deposit Insurance Corporation Improvement Act
FIRREA          Financial Institutions Reform, Recovery, and Enforcement Act
GAO             Government Accountability Office
MOU             Memorandum of Understanding
OIG             Office of Inspector General
OTS             Office of Thrift Supervision
RIS             Research Information System
SAIF            Savings Association Insurance Fund
Federal Deposit Insurance Corporation                                                                     Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                      Office of Inspector General


DATE:                                April 17, 2006

MEMORANDUM TO:                       Arthur J. Murton, Director
                                     Division of Insurance and Research

                                     Fred Selby, Director
                                     Division of Finance

                                     Barbara A. Ryan
                                     Acting Deputy to the Acting Chairman



FROM:                                Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                     Assistant Inspector General for Audits

SUBJECT:                             FDIC Reserve Ratio and Assessment Determinations
                                     (Report No. 06-013)


This report presents the results of our audit of the FDIC’s reserve ratio and assessment
determination processes. The objective of this audit was to determine whether: (1) the Division
of Insurance and Research (DIR) accurately determines the funds’ reserve ratios and (2) the
Division of Finance (DOF) has adequate controls in place to ensure that the FDIC accurately
calculates, collects, and processes assessments of financial institutions. During our review, we
expanded our objective to include evaluating the FDIC’s communication of information relevant
to the reserve ratios to the FDIC Board of Directors (Board). Appendix I contains additional
details on our objective, scope, and methodology.

BACKGROUND
Historically, the FDIC maintained the Bank Insurance Fund (BIF) and the Savings Association
Insurance Fund (SAIF) by assessing depository institutions a semiannual premium based on the
institution’s total domestic deposits, with certain adjustments, and the degree of risk that the
institution posed to its respective insurance fund. Section 302(a) of the FDIC Improvement Act
of 1991 (FDICIA) required the FDIC’s Board of Directors (Board) to establish a risk-based
assessment system. In September 1992, the Board amended its regulations on assessments to
transition from a uniform rate to a risk-based insurance assessment system.1

The Federal Deposit Insurance Act (FDI Act) also required the Board to set assessments only to
the extent necessary to maintain the insurance funds at the designated reserve ratio (DRR) of
1.25 percent of estimated insured deposits. The term “reserve ratio” was defined for each
deposit insurance fund as the ratio of the fund’s net worth to the value of the aggregate estimated
1
    Part 327 of the FDIC Rules and Regulations established the current risk-based assessment system.
deposits insured by that fund. In setting the assessments, the Board considered expected
operating expenses, case resolution expenses and income, the effect of assessments on member
earnings and capital, and other factors the Board deemed appropriate. The Board set assessments
higher for institutions that exhibited financial, operational, or compliance weaknesses ranging
from moderately severe to unsatisfactory or were not well capitalized. The FDIC calculated the
reserve ratio and set assessments separately for each deposit insurance fund.

DIR’s Financial Risk Management Branch is responsible for assessing the adequacy of the
deposit insurance funds and implementing an effective and fair risk-based premium system.
DOF’s Assessment Management Section (AMS) handles the assessment billing and collection
function. AMS is responsible for establishing policy-related issues and assessing and invoicing
FDIC member institutions on a quarterly cycle for FDIC risk-based assessment premiums.
Table 1 presents information about the reserve ratio determination and assessment rate processes.

Table: 1: Reserve Ratio Determination and Assessment Rate Processes
    Process                   Reserve Ratio                          Assessment Rates
    Responsible Office        Calculated by DIR.                     Determined by the FDIC Board of Directors.

                                                                     Implemented by DOF.

    Relevant Information      DIR’s Research Information System      AIMS II is used to determine assessment
    Systems and Reporting     (RIS) is used to house data. Some      amount and to invoice financial institutions
    Methods                   data obtained from the Assessment      for assessments.
                              Information Management System
                              (AIMS II).                             Assessment rates are reported in the Federal
                                                                     Register.
                              Reserve ratios are reported in the
                              Quarterly Banking Profile.

    Basis for Calculation     Based on estimated insured deposits.   Based on total domestic deposits with certain
                                                                     adjustments.

    Purpose of Process        Used to assess sufficiency of          Used to capitalize the insurance funds.
                              insurance funds and to “trigger”
                              assessments.

Source: OIG Review of DIR and DOF information.

The Act also required the Board to maintain the BIF and SAIF independently of each other,
which presented a challenge for the FDIC in allocating estimated insured deposit amounts for
Oakar institutions.2 Oakar institutions resulted from transactions in which a member of one
insurance fund acquired a member (or deposits) from the other fund, known as the secondary
fund. Most Oakar institutions resulted from BIF members acquiring SAIF deposits or
institutions. Table 2 presents information about the deposit insurance funds and Oakar members.




2
    Named after former Representative Mary Rose Oakar, who sponsored the Oakar Amendment to the FDI Act.



                                                         2
Table 2: Selected Information About BIF and SAIF (Dollars in Millions)
                                                  3rd Quarter 2005          4th Quarter 2004
BIF
Total BIF Members                                                  7,748                  7,839
  BIF-Member Oakar Institutions                                      758                    773
  Other BIF Members                                                6,990                  7,066
Total Assets                                                  $9,206,648             $8,743,794
Total Deposits                                                $6,072,380             $5,773,607
Annual Assessments                                                   $52                    $95
SAIF
Total SAIF Members                                                  1,106                 1,136
  SAIF-Member Oakar Institutions                                      146                   149
 Other SAIF Members                                                   960                   987
Total Assets                                                  $1,493,376             $1,360,829
Total Deposits                                                  $896,294              $810,588
Annual Assessments                                                     $8                    $9
Source: FDIC’s Quarterly Banking Profile, and Semiannual Rate Cases.

In February 2006, Congress passed The Federal Deposit Insurance Reform Act of 2005, which
requires merging the BIF and SAIF insurance funds into a single Deposit Insurance Fund. The
FDIC merged the funds at the end of March 2006. Accordingly, implementation of the
legislation eliminated the need for the FDIC to allocate Oakar deposits between BIF and SAIF.

RESULTS OF AUDIT
The FDIC could improve internal controls over the reserve ratio and assessment determination
processes. Although the FDIC accurately calculated fund reserve ratios and assessments due
from financial institutions, a key underlying assumption supporting the reserve ratio calculations
became outdated and was not representative of actual transactions. We concluded that the
Corporation could improve its processes for estimating insured deposits and for communicating
to the Board information relevant to assessment determinations and other corporate matters and
activities.

The FDIC did not periodically validate key assumptions used to allocate estimated insured
deposits at Oakar institutions to BIF and SAIF. In particular, the FDIC historically assumed that
100 percent of Oakar secondary fund deposits were insured. Over time, that assumption became
less representative of actual transactions.

In October 2004, the FDIC established an interdivisional group to study the Corporation’s
methodology for estimating and allocating insured deposits (Study). After considering various
options, the FDIC devised a new method for allocating Oakar estimated insured deposits that the
FDIC determined was more representative of actual transactions. DIR conducted an analysis
simulating how estimated insured deposits would have been allocated had the new method been
in effect since the beginning of 1997. DIR concluded that by September 2004, the new method
would have resulted in just over $96 billion more in estimated insured deposits allocated to BIF
and correspondingly fewer estimated insured deposits allocated to SAIF compared to the existing
allocation method. Further, we recalculated BIF and SAIF reserve ratios using DIR’s analysis
and concluded that reallocating estimated deposits insured by the funds to reflect the new method



                                                     3
would have caused BIF to drop below the 1.25 percent DRR for a 6-quarter period starting in late
2001 and again in 2005. The Act generally required the Board to take action to return the
reserve ratio to 1.25 percent within 1 year.

In February 2005, the FDIC formally adopted the new method and elected to apply the new
method prospectively and not reallocate estimated deposits between BIF and SAIF. Because the
nature, timing, and application of the new method could have had a significant impact on the
reserve ratios, we concluded that the FDIC should have more fully: (1) informed the Board of
the Study results and various alternatives that were considered and (2) involved the Board in the
decision on whether, and how, to change the allocation method, including how to address the
cumulative effect (estimated at $96 billion) of not applying the new, more representative
allocation method earlier. For example, the Study results were not discussed in the 2005 BIF or
SAIF semiannual assessment rate cases presented to the Board. FDIC officials involved in the
Study indicated they had operated under Board delegations of authority in adopting the new
method and that they had briefed the FDIC Chairman and deputies to the Board members before
publicly announcing the change.

In addition to mandating the merger of the BIF and SAIF insurance funds, the recently enacted
deposit insurance reform legislation also replaced the 1.25 DRR with a 1.15-to-1.5-percent
range, which allows the Board more discretion in setting the DRR. This further supports our
conclusion that the FDIC should improve controls over the assessments process by periodically
validating assumptions and estimates and clarifying Board delegations of authority related to the
assessments determination process. In addition, FDIC management and the Board should jointly
review, and improve as appropriate, the Corporation’s procedures and practices for keeping the
Board members informed of corporate activities and operations.


FINDINGS AND RECOMMENDATIONS

CALCULATION OF RESERVE RATIO AND ASSESSMENT DETERMINATIONS

The FDIC accurately calculated the BIF and SAIF reserve ratios and accurately calculated and
collected assessments due from financial institutions. However, as discussed later in this report,
the internal controls over the reserve ratio and assessment determination processes need to be
strengthened. Specifically, the FDIC’s assumption used to allocate estimated insured deposits
became outdated over time and less representative of actual Oakar institutions.

Calculation and Reporting of Reserve Ratio

The FDI Act required the FDIC to estimate insured deposits in setting assessments for each
insurance fund and defined the DRR of each deposit insurance fund to be 1.25 percent of
estimated insured deposits. Estimating insured deposits involves taking a snapshot of the
depository institutions’ reported deposit holdings and estimating what portion of the deposits are
insured. The FDIC was required to conduct this estimate to satisfy its obligation of maintaining
the DRR at 1.25 percent of estimated insured deposits.




                                                 4
DIR was responsible for calculating the reserve ratios for the BIF and SAIF insurance funds.
DIR calculated the reserve ratios by dividing the BIF and SAIF fund balance by the estimated
deposits insured by each fund. To determine the reserve ratio, the FDIC first calculated the
amount of estimated insured deposits. To calculate estimated insured deposits, the FDIC
obtained deposit information from financial institutions’ Call Reports and Thrift Financial
Reports and deducted estimated uninsured deposits from total deposits. The estimated insured
deposits amount was the denominator in the reserve ratio calculation.

As a part of this audit, we recalculated the reserve ratio for the quarterly periods January 1997
through June 2005 based on the assumptions used by the FDIC in determining estimated insured
deposits. We determined that the FDIC correctly calculated the BIF and SAIF reserve ratios
based on those assumptions. Additionally, we verified that the FDIC accurately reported the
reserve ratios calculated in this manner in the Quarterly Banking Profile. However, as discussed
later, those assumptions became less representative of actual Oakar transactions.

Calculation and Collection of Assessments

The FDIC’s risk-based assessment regulations are set forth in Part 327 of the FDIC Rules and
Regulations. The Board delegated authority to the Director, DOF, to administer regulations for
the Corporation that governed the payment of assessments by insured depository institutions in
accordance with the provisions of the FDI Act. DOF’s AMS handles the assessment billing and
collection function. Additionally, AMS is responsible for establishing FDIC policy related to
assessments and assessing and invoicing FDIC member institutions on a quarterly cycle for
FDIC risk-based assessment premiums.

AMS maintains and uses AIMS II to calculate and collect FDIC-insured institutions’ assessments
on a quarterly basis. AIMS II has the capability to gather deposit and other data needed to
calculate assessments. During the billing and collection process, AMS makes any necessary
adjustments/amendments to financial institution demographic and financial data. AMS also
produces and reviews assessment invoices and makes those invoices available to financial
institutions through FDICconnect at least 15 days prior to the payment due date.3 Additionally,
AMS staff produce Automated Clearing House files; monitor financial institution changes (e.g.,
new institutions, terminated institutions, mergers, branch sales); and produce management
reports.

To verify that the FDIC had adequate controls to ensure that assessments were properly
calculated and collected, we selected a random sample of invoices from 43 of the 602 institutions
that had paid assessments for the quarter ending December 31, 2004. Our audit tests included
tests of controls to ensure that the assessment base amounts used for billing financial institutions
agreed with Call Report and Thrift Financial Report data. In addition, we recalculated invoice
totals to ensure that DOF accurately calculated assessment amounts. Further, we verified that the
FDIC made assessment invoices available to financial institutions through FDICconnect at least
15 days prior to payment due dates and collected assessments accurately and in a timely manner.
We identified no discrepancies during our audit testing.
3
  FDICconnect is the Internet channel that FDIC insured institutions use to conduct business and exchange
information with the FDIC. FDICconnect is a secure e-business transaction site.



                                                        5
THE FDIC’S PROCESS FOR ESTIMATING INSURED DEPOSITS

The FDIC could improve its process for estimating insured deposits. We found that the FDIC
did not periodically validate assumptions used in estimating insured deposits for the purpose of
calculating the reserve ratios. In particular, the FDIC historically assumed that 100 percent of
Oakar secondary fund deposits were insured. Because the FDIC did not have a procedure or
process for periodically validating the assumption, the Corporation was not aware for an
extended period of time that the assumption became less representative of actual transactions. In
early 2005, the FDIC adopted a new method for allocating Oakar estimated insured deposits that
the FDIC determined was more representative of actual transactions. An FDIC analysis showed
that had the new, more representative, methodology been implemented at the beginning of 1997,
$96 billion more in estimated insured deposits would have been allocated to BIF and
correspondingly fewer estimated insured deposits would have been allocated to SAIF compared
to the existing allocation method.

Oakar Institutions

Oakar institutions resulted from transactions in which a member of one insurance fund acquired
a member (or some deposits) of the other fund. The resulting Oakar institution’s “secondary”
fund referred to the fund that insured the acquired institution. Most such acquired deposits,
referred to as Oakar deposits, were SAIF deposits held by BIF members. Oakar deposits dated to
the 1989 savings and loan clean-up legislation4 wherein the Congress sought to prevent future
thrift failures from burdening taxpayers by ensuring that the newly created SAIF would have a
viable assessment base. While encouraging banks to buy troubled thrifts, the Congress provided
that SAIF would assess some of the bank’s deposits after the acquisition. The amount assessed
by SAIF would be derived from the acquired thrift’s deposits.

Oakar institutions were required to include, in their Call Reports, insured deposit information
resulting from transactions involving Oakar institutions during the period in which the
transaction occurred. However, Oakar institutions were not required to maintain or report
separate accounting or allocation of deposits between BIF and SAIF during subsequent periods.
Thus, to calculate quarterly reserve ratios, the FDIC had to allocate the estimated insured
deposits of Oakar institutions between BIF and SAIF.

Adjusted Attributable Deposit Amount

The Oakar Amendment to the FDI Act introduced the concept of the Adjusted Attributable
Deposit Amount (AADA). An AADA was an artificial construct: a number, expressed in
dollars, that was generated in the course of an Oakar transaction and that pertained to the buyer.
The AADA’s initial value was equal to the actual amount of the secondary fund deposits that the
buyer acquired from the seller. Thereafter, the AADA increased or decreased at the same
underlying rate as the buyer's overall deposit base, that is, at the rate of growth or shrinkage due
to its ordinary business operations, not counting growth due to the acquisition of deposits from
another institution (e.g., in a merger or a branch purchase). The FDIC used an Oakar institution's
AADA for the following purposes.

4
    Financial Institutions Reform, Recovery, and Enforcement Act of 1989 (FIRREA).



                                                        6
•   Assessments: An Oakar institution paid two assessments: one for deposits in its secondary
    fund and the other for deposits in its primary fund. The secondary fund assessment was
    based on the portion of the assessment base that was equal to the AADA. The primary fund
    assessment was based on the remaining portion of the assessment base.

•   Insurance: The AADA fixed the amount of the institution's deposits to be treated as insured
    by an Oakar institution's secondary fund. The remaining portion of the institution's deposits
    was insured by the primary fund. If an Oakar institution failed and the failure caused a loss
    to the FDIC, the two insurance funds shared the loss in proportion to the amounts of deposits
    that they insured.

Estimated Insured Deposits

DIR also used the AADA to allocate estimated insured Oakar deposits between BIF and SAIF
for the purpose of calculating the reserve ratios. The denominator in the reserve ratio was
largely based on the financial institutions’ estimated insured deposit amounts. The FDI Act did
not specifically define “estimated insured deposits.” However, since 1989, DIR assumed, for the
purpose of determining the reserve ratios, that 100 percent of the AADA (also known as
secondary fund deposits or Oakar deposits) was insured. According to DIR, for several years
after FIRREA, this assumption appeared to closely mirror reality. Most of the Oakar deposits
created in the early- and mid-1990s were SAIF deposits acquired by BIF members that were, on
average, almost fully insured.

To maintain the secondary fund’s share of an Oakar institution’s total deposits (and thus its
assessment base), the FDIC increased the Oakar deposit amount by the institution’s total deposit
growth rate (excluding acquisitions). Because all Oakar deposits were assumed to be insured,
the secondary fund’s estimated insured deposits also increased at the total deposit growth rate.
According to DIR, in the early- to mid-1990s, industry-insured deposit growth was, on average,
close to total deposit growth. Thus, the secondary fund’s proportion of a typical Oakar
institution’s estimated insured deposits changed very little during those years.

During 2004, DOF identified financial trends in SAIF that were inconsistent with SAIF reserve
ratio trends. DOF determined that from 1998 through 2004, SAIF experienced favorable
portfolio investment returns, few institution failures, proportionally smaller losses on failures
than BIF, and low expenses but a declining reserve ratio.

One factor that DOF identified as possibly influencing these SAIF trends was the FDIC’s
historical assumption that 100 percent of all secondary fund deposits were insured. To quantify
the potential impact of this factor, DOF prepared a comparative analysis of the estimated insured
deposit amounts allocated to BIF and SAIF for each Oakar institution using: (1) the existing
method, and (2) the assessment base allocation method, which allocated an Oakar institution’s
total estimated insured deposits on a pro rata basis to the primary and secondary funds. Table 3
shows how insured deposits estimates would have differed between the two approaches for a
hypothetical Oakar institution.




                                                7
Table 3: Insured Deposit Estimates for a Hypothetical Oakar Institution (in millions)
                                             Institution’s        Percentage of     Secondary       Secondary
Methodology for Estimating Oakar                Total           Insured Deposits      Fund        Fund Estimated
Insured Deposits                               Deposits           for the Total      Deposits        Insured
                                                                   Institution       (AADA)          Deposits

Using the existing method that assumed
                                              $2,000,000              80%            $500,000         $500,000
100% of the secondary fund was insured.
Using the assessment base allocation
method that allocated total estimated
                                              $2,000,000              80%            $500,000         $400,000
insured deposits to the primary and                                                                  ($500,000 x .80)
secondary funds on a pro rata basis.
Source: OIG Analysis.

DOF calculated the net difference between the two methods for all Oakar institutions for the
June 2004 quarterly reporting period and identified a net difference of $142 billion in the
allocation of estimated deposits insured by BIF and SAIF. DOF concluded that the assessment
base allocation method would have allocated $142 billion more to BIF and correspondingly less
to SAIF. Most of the difference was attributable to approximately 40 BIF Oakar institutions with
SAIF (secondary fund) deposits. DOF performed similar analyses for several other quarterly
reporting dates. Table 4 presents information from DOF’s analysis.

Table 4: DOF-Identified Differences in Oakar Insured Deposit Estimates (in billions)
                        Total Deposits                          SAIF Estimated Insured Deposits
                         (Estimated              As reported in the               Based on the
Reporting Date           Percentage              Quarterly Banking             Assessment Base            Difference
                          Insured)                    Profile(a)              Allocation Method(b)
As of 12/31/1996(c)     $1,782.2 (75%)                 $338.7                        $300.1                  $38.6
As of 6/30/2004         $3,727.3 (60%)                 $679.4                         $537.6                $141.8
Source: DOF Analysis.
a
  Based on the premise that 100 percent of secondary deposits were insured.
b
  Based on the premise that secondary deposits were insured up to the percentage of total insured deposits.
c
  DIR’s simulation analysis (see page 9) applied the new method starting in 1997. Table 4 presents information as
of December 31, 1996 and June 30, 2004 to allow for a more comparative analysis between the assessment base
allocation method and DIR’s simulation analysis of the new method for allocating estimated insured deposits.

FDIC Efforts to Address Estimated Insured Oakar Deposit Differences

In October 2004, the FDIC established an interdivisional group to study the FDIC’s methodology
for estimating and allocating insured deposits (Study). The Study Group was tasked with:

•   evaluating all of the options for allocating the insured portion of the AADA in Oakar
    institutions for the purposes of estimating BIF- and SAIF-insured deposits and for allocating
    costs in the event of a failure of an Oakar institution;
•   evaluating the merits of using total deposits in the denominator of the fund reserve ratio
    calculations instead of insured deposits; and
•   making significant progress on the Study by February 2005 to ensure that the Chairman,
    Chief Operating Officer (COO), and Chief Financial Officer (CFO) could reference the



                                                         8
    Study in the annual management representations that they jointly made to the Government
    Accountability Office (GAO) as part of the FDIC’s financial statement audit.

Further, the CFO defined a project structure, milestones for project completion, and a Project
Steering Committee composed of senior FDIC executive managers to oversee the project.

After the Study Group considered several alternatives for addressing the Oakar allocation issue,
the Study Group issued an internal study report, Allocating Estimated Insured Deposits of Oakar
Institutions Between the Insurance Funds (Oakar Study Report),5 which concluded that
unanticipated deposit trends at Oakar institutions made it appropriate to consider revising the
estimated insured deposit allocation method for the reserve ratios.

The Oakar Study Report concluded that, over time, Oakar institutions began relying more
heavily on uninsured deposit financing, and Oakar institutions’ total deposits (which included
insured and uninsured deposits) grew at a greater rate than estimated insured deposits.
Specifically, the Oakar Study Report stated that from 2000 through 2004, estimated insured
deposits at the 10 largest BIF-member Oakar institutions declined from 70 percent to 59 percent,
and from the end of 1996 through 2003, BIF members’ total deposits grew at a compound annual
rate of 6.2 percent compared to only 3.8 percent growth for estimated insured deposits. These
uninsured deposit trends were not consistent with FDIC’s assumption that 100 percent of Oakar
deposits were insured.

The Oakar Study Report recommended a new method for allocating estimated insured deposits at
Oakar institutions that the Study Group determined was more representative of actual Oakar
insured deposit trends. The FDIC elected to apply the new method prospectively beginning in
the fourth quarter 2004. The new method differed from the existing method as follows.

•   For future Oakar transactions, the insured share of Oakar deposits would correspond to the
    acquired institution’s ratio of insured-to-total deposits.6
•   For existing and new Oakar institutions, the estimated insured growth rate of Oakar deposits
    would grow at the institution’s estimated insured deposit growth rate.
•   Prospective application of the new method meant that, for existing Oakar institutions, at the
    start date of implementation (i.e., the start of the last quarter of 2004), insured Oakar deposits
    would equal total Oakar deposits.

The Oakar Study Report also included an analysis simulating how estimated insured deposits
would have been allocated had the new method been in effect since the beginning of 1997. The
Oakar Study concluded that by September 2004, the new method would have resulted in just
over $90 billion more in estimated insured deposits allocated to BIF and correspondingly fewer
estimated insured deposits allocated to SAIF compared to the existing method. The Oakar Study
Report concluded that much of the difference appeared to have been concentrated in the past 2 to
3 years when total deposit growth was noticeably higher than insured deposit growth.

5
  The FDIC issued draft versions of the Oakar Study Report in November 2004 and January and February 2005.
The FDIC issued a final version of the Oakar Study Report on March 3, 2005.
6
  When the acquired institution was already an Oakar bank, the percentage was based on the acquired institution’s
ratio of insured to total deposits applicable to the acquirer’s secondary fund.



                                                         9
DIR and Legal Division representatives indicated that the CFO; COO; General Counsel; and
Director, DIR, briefed the FDIC Chairman on the Oakar estimated insured deposit allocation
issue, the results of the Study, and the proposed new method for allocating estimated insured
deposits. DIR and Legal Division representatives also indicated that they briefed some
information to the deputies to the FDIC Board members before publicly announcing the change
in methodology. In February 2005, the FDIC formally adopted the new method. The FDIC
included a disclosure discussing the change in methodology in the fourth quarter 2004, Quarterly
Banking Profile, which was issued in late February 2005. Finally, the CFO briefed GAO on the
Oakar issue in April 2005 and provided GAO a copy of the Oakar Study. We discuss the FDIC’s
efforts to communicate the Oakar estimated insured deposit allocation issue later in this report.

Impact of New Allocation Method on Fund Reserve Ratios

We concluded that the nature, timing, and application of the new, more representative method
could have had a significant impact on the reserve ratios. At our request, in August 2005, DIR
recalculated its simulation analysis on a quarter-by-quarter basis. DIR also revised its analysis to
conform with another DIR change in assumptions regarding branch purchases7 and to reflect
other technical changes to be consistent with the new method. These changes increased the
cumulative net effect of not applying the new, more representative method between 1997 and
2004 from $90 billion to $96 billion. Figure 1 below presents the results of DIR’s revised
analysis by semiannual period.

Figure 1: DIR Analysis of Applying the New Method Historically
              NET INCREASE IN ESTIMATED BIF-INSURED (AND DECREASE IN ESTIMATED SAIF-INSURED) DEPOSITS
            IF CURRENT OAKAR INSURED DEPOSIT ALLOCATION METHOD HAD BEEN IN EFFECT BEGINNING IN 1997

          120



          100
                                                                                                                                                                  96
                                                                                                                                                             95
                                                                                                                                                        88
            80                                                                                                                           76        82
    $ Billions                                                                                                                                75
                                                                                                                                    68
           60                                                                                                                  59
                                                                                                                          54
                                                                                                           50
                                                                                                                     44
           40                                                                                                   38
                                                                                                      37
                                                                             28        33
                                                                                                 35
                                                                22                26        27
                                                 23                  21 25
           20                               19             19
                                       16             18
                                  12
                 0       7   10
                     4
            0
       Mar-97 Sep-97 Mar-98 Sep-98 Mar-99 Sep-99 Mar-00 Sep-00 Mar-01 Sep-01 Mar-02 Sep-02 Mar-03 Sep-03 Mar-04 Sep-04

                                                                                  Date

Source: DIR.


7
  The original simulation analysis assumed that deposits from branch purchases were 100-percent insured. Because
a small amount of branch deposits could have been uninsured, DIR added an assumption to the new method that
deposits in acquired branches were 90-percent insured. DIR recalculated the analysis to reflect this change.



                                                                                       10
We recalculated BIF and SAIF reserve ratios using DIR’s simulation analysis and concluded that
the new more representative method would have caused the BIF to drop below the 1.25 percent
DRR for a 6-quarter period starting in late 2001 and again in 2005. This was significant because
the FDI Act generally required the Board to take action to return the reserve ratio to 1.25 percent
within 1 year. We also determined that the new method would have increased the SAIF reserve
ratio to as high as 1.53 percent in September 2003. Figure 2 presents our analysis of BIF and
SAIF reserve ratios.

Figure 2: OIG Analysis of Reserve Ratios
                    1.55%

                    1.50%

                    1.45%
    Reserve Ratio




                    1.40%

                    1.35%

                    1.30%

                    1.25%

                    1.20%

                    1.15%
                        Jun-01   Dec-01     Jun-02     Dec-02      Jun-03     Dec-03     Jun-04     Dec-04       Jun-05

                                    OIG Recalculation of BIF Reserve Ratio Using DIR Simulation of New Method
                                    Reported BIF Reserve Ratio
                                    Reported SAIF Reserve Ratio
                                    OIG Recalculation of SAIF Reserve Ratio Using DIR Simulation of New Method
Source: OIG Analysis of reserve ratio information and simulation analysis from DIR.
Note: For presentation purposes, Figure 2 presents SAIF and BIF reserve ratios for the period June 2001 through
December 2005. However, we analyzed the simulation analysis impact on the reserve ratios for the period 1997 through
June 2005. We determined that neither the reported reserve ratios nor the OIG recalculation of the reserve ratios dropped
below the 1.25 percent DRR during the period 1997 through June 2001.

The outdated assumption may have also affected the allocation of FDIC administrative expenses
between the two funds.8 We did not attempt to quantify these amounts. However, it appears that
application of the outdated assumption did not have an impact on the following processes or
factors.

•     Actual Assessments Due From Oakar Institutions: Actual assessments due were based on
      total domestic deposits. Thus, the Oakar estimated insured deposit allocation issue would
      not have affected an Oakar institution’s assessment base, which the FDIC used to determine
      the assessment amount.


8
 The FDI Act required the FDIC to allocate personnel, administrative, or other overhead expenses of the
Corporation to BIF and SAIF. Some of those expenses were allocated based on estimated insured deposits.



                                                                 11
•   Allocation of Losses in the Event of an Oakar Failure: In the event of an institution failure,
    FDIC based liquidation of the failed institution on actual insured deposits. BIF and SAIF
    then shared any loss in proportion to assessable deposit shares (or the assessment base, which
    was based on total deposits). Again, the Oakar estimated insured deposit allocation issue
    would not have had an impact on the allocation of losses from an institution failure.

•   Credits or Dividends Due to SAIF Members: In certain cases, some financial institutions
    could be due credits or dividends for prior period assessments paid to an insurance fund.
    According to DIR and the Legal Division, no “1-A” Category SAIF members9 had paid
    assessments to SAIF since 1997, thus no credits related to that period would have been due to
    SAIF institutions. Moreover, SAIF, unlike BIF, did not have a ceiling on the reserve ratio
    that could trigger credits or dividends to members.

We concluded that, while the new, more representative method will stem the growth of the
disparity between the existing and new methods for allocating Oakar estimated insured deposits,
prospective application of the new method will not resolve the cumulative effect ($96 billion) of
not applying the new method earlier. In February 2006, Congress passed deposit insurance
reform measures that included merging the BIF and SAIF insurance funds and eliminated the
need for the FDIC to allocate Oakar estimated insured deposits between the funds.

DIR Process for Periodically Reviewing Key Assumptions and Estimates

In August 2004, DIR, DOF, and the Division of Information Technology, signed a memorandum
of understanding (MOU), Allocating Estimated Insured Deposits between BIF and SAIF
According to the AADA held by Oakar Institutions. The three divisions agreed to work more
closely each quarter in order to ensure a more reliable process and data integrity in allocating
estimated insured deposits and producing the FDIC’s calculations of BIF and SAIF reserve
ratios. DIR and DOF also agreed to continue to examine the methods by which insured,
domestic, and assessable deposits were calculated to ensure that these methods were applied
consistently. We agree that the MOU should enhance cooperation between DIR and DOF and
will help to ensure reliable data for the reserve ratio calculation.

However, we concluded that DIR could benefit from a more formal process (1) for periodically
reviewing key assumptions and estimates related to the insurance funds and reserve ratio
calculations, particularly assumptions related to estimated insured deposits, and (2) for
documenting the results of such reviews, including the alternatives considered, the impact of
alternatives on the insurance funds and reserve ratios, and the basis for decisions made to change
assumptions or estimates. Without a periodic process that is clearly documented, DIR may not
be able to make timely adjustments or revisions to assumptions and estimates, and the basis for
DIR’s decisions may not be transparent.




9
 Capital Group “1” and Supervisory Subgroup “A” was the lowest-risk category in the FDIC’s risk-based premium
system and included institutions considered well capitalized with a composite rating of 1 or 2.



                                                     12
Recommendation

We recommend that the Director, DIR:

(1) Establish policies and procedures for periodically validating key assumptions, estimates, or other
    components that factor into the calculation of the reserve ratio(s). Such procedures should
    address:

   •   a recommended schedule for validating key assumptions and estimates,
   •   discussion of disposition of alternatives considered but not accepted,
   •   documentation requirements to support decisions to change key assumptions or estimates,
   •   reporting the results of the validation process.

Corporation Comments and OIG Evaluation

The Director, DIR, provided a written response, dated April 13, 2006, for recommendation 1.
The response is presented in its entirety in Appendix II. The Director, DIR, concurred with the
recommendation and agreed to develop policies and procedures that will require DIR managers
to periodically identify, validate, and approve key assumptions and estimates that support the
calculation of the reserve ratio. The policies and procedures will require analysis of industry-
wide issues and trends that could affect current or future estimates, as well as other factors such
as economic trends, changes in institution accounting practices, etc. The policies and procedures
will also focus on issues that affect the integrity of the application data that support reserve ratio
calculations. For example, DIR will periodically validate the integrity of bank data systems, and
discuss and approve the process and assumptions used to generate the data.

The policies and procedures will also include a schedule of periodic meetings to discuss
concerns. Managers and staff will adequately document material discussions, decisions, testing,
and validation results, including but not limited to, discussions of alternatives considered but not
accepted, decisions to accept or change key assumptions and estimates, and the communication
of recommendations and decisions to appropriate DIR management.

The Director, DIR, agreed to draft and submit policies and procedures to the Board for review by
September 30, 2006. DIR’s planned actions are responsive to the recommendation, and we
consider recommendation 1 resolved. However, the recommendation will remain open until we
have determined that agreed-to corrective actions have been completed and are effective.

In its response, DIR noted that there is no single correct method to estimate and allocate insured
deposits and there is no scientific way to determine at what precise point in time an existing
method becomes insufficiently representative so as to require a change. We acknowledge that
there is no single correct method for estimating and allocating insured deposits. Estimates are
expected to be reasonable and involve objective and subjective judgment. As recommended, a
periodic validation of key assumptions and estimates should help to ensure that the Corporation’s
method remains sufficiently representative and reasonable.

DIR also contended that previous changes in methodology impacting estimated insured deposits
have been adopted prospectively and not applied retroactively to earlier periods, and that they



                                                  13
were therefore following precedent. DIR offered two examples wherein changes in estimating
methodologies were not applied retroactively. First, it should be noted that we did not suggest
retroactive application. Rather, we stated that the decision on whether, and how, to address the
cumulative net effect (estimated at $96 billion) of applying an updated methodology only
prospectively, and not restating deposit funds to reflect the new method, was one on which the
Board should have had more information and involvement.

In addition, in both cited cases, the Corporation elected to apply the new methodologies to all
deposits at the date the methodologies were changed, which had an immediate effect on
estimated insured deposit amounts, in one case for $47 billion and in another case for $56 billion.
Conversely, in this case, FDIC elected to apply the new methodology only to newly generated
Oakar deposits and growth occurring in the last quarter of 2004 (i.e., prospective application),
rather than to all existing Oakar deposits. Thus, application of the new Oakar methodology did
not resolve most of the $96 billion cumulative effect of not applying the new, more
representative, allocation method earlier. Nevertheless, we are not concluding on whether the
FDIC selected the correct methodology for estimating insured deposits or whether the FDIC
properly applied the change in methodology. As discussed in the next section of this report, in
our view, selection and application of the current methodology was a matter warranting
deliberation by the Board based on timely, accurate, and complete information.

Finally, DIR states that even were the FDIC to retroactively apply the revised methodology, it
could not legally impose assessments on banks for prior periods. As noted above, we did not
suggest retroactive application of the methodology. We also did not suggest that the FDIC
impose any assessments, and therefore did not evaluate related legal authorities.


BOARD MEMBER INVOLVEMENT IN, AND REPORTING OF, THE OAKAR
ESTIMATED INSURED DEPOSIT ALLOCATION ISSUE

The FDIC could have done more to inform its Board of Directors of the Oakar estimated insured
deposit allocation issue. FDIC Legal Division representatives indicated that FDIC officers
operated under appropriate delegations of authority in adopting the new method and that they
had briefed the FDIC Chairman on the issue. We concluded that the FDIC should review its
delegations of authority related to the assessments determination process to determine whether
the delegations need to be clarified or modified. Study Group representatives also stated that
they had provided a briefing on the Oakar issue to the deputies to the Board members (Deputies),
but this briefing did not clearly discuss the Study results, various alternatives considered, or the
dollar and reserve ratio impact of the allocation methods being considered. Moreover, the timing
of the briefing did not provide sufficient opportunity for Board members to evaluate the Oakar
issue or raise questions before the change was publicly announced. Steps should be taken to
clarify Board expectations regarding the types of issues that should be provided to the Board for
review and approval and to ensure that existing mechanisms for providing the Board current,
accurate, and complete information—such as the Deputies’ briefings—are adequate. Such
actions should help to ensure that Board members are informed of, and have an opportunity to be
involved in, matters that could impact their constituent financial institutions.




                                                14
FDIC Board of Directors

The FDIC is managed by a five-person Board of Directors whose members include the
Comptroller of the Currency (Comptroller) and the Director of the Office of Thrift Supervision
(OTS). The Board has all of the powers specifically granted by the provisions of the FDI Act.
With respect to assessments, the FDI Act required the Board to set semiannual assessments for
insured depository institutions when necessary, and only to the extent necessary, to maintain the
reserve ratio of each deposit insurance fund at the DRR or to increase the reserve ratio to the
DRR if the reserve ratio was less than the DRR.10 The FDI Act required the Board to review and
weigh the following factors when setting assessments:

       •   expected operating expenses;
       •   case resolution expenditures and income;
       •   the effect of assessments on fund members’ earnings and capital; and
       •   any other factors that the Board may deem appropriate.

Finally, the FDI Act also required the Board to set semiannual assessments for members of each
deposit insurance fund independently from semiannual assessments for members of any other
deposit insurance fund and to set the DRR of each deposit insurance fund independently from the
DRR of any other deposit insurance fund.

Delegations of Authority

The FDI Act does not address whether the Board may delegate its rate-setting authority to FDIC
officials. Further, the FDI Act does not address how estimates or assumptions impacting the
reserve ratio should be treated. We confirmed with the Legal Division that the Board’s
ratemaking authority had not been delegated to FDIC officers. However, Legal Division
representatives asserted that the Board had delegated authority for implementing the assessment
function to FDIC officers. Therefore, the FDIC General Counsel had concluded that these
officers could act within their delegated authority to adopt a revised methodology for estimating
Oakar insured deposits and decide how to apply that methodology, for example, prospectively
without reallocating BIF or SAIF estimated insured deposit amounts.

Section 5 of the Bylaws of the Federal Deposit Insurance Corporation (Bylaws) addresses the
powers of the Board and states that the management of the Corporation shall be vested in the
Board, which shall have all powers specifically granted by the provisions of the FDI Act and
other laws of the United States. Section 5 also states that, within limitations of the law, the
Board may delegate any of its specific or incidental powers to any standing or special committee
of the Corporation or to any officer or agent of the Corporation.

FDIC Legal Division representatives identified two areas of the Bylaws that it asserted provided
FDIC officers with the authority to adopt and implement the revised estimation methodology.
Article VI of the Bylaws identifies the following specific powers and duties:


10
     12 United States Code Part 1817(b)(2)(A).



                                                  15
           The Deputy to the Chairperson and Chief Financial Officer shall implement programs consistent
           with the Chief Financial Officers Act of 1990, including establishing and maintaining sound
           financial management systems, accounting systems, corporate budgeting procedures, and cash
           management systems… .

           The Director of the Division of Finance shall…receive, deposit, disburse, manage, safely keep,
           and account for all funds of the Corporation, including those funds payable to it in connection
           with its functions assigned to the Director of the Division of Resolutions and Receiverships;
           maintain all accounting records of the Corporation; prepare financial statements and reports
           therefrom; and administer regulations of the Corporation governing the payment of assessments
           by insured depository institutions in accordance with the provisions of the Federal Deposit
           Insurance Act.

As stated, the CFO’s delegations focus on establishing and maintaining financial systems and
processes, while the Director, DOF’s, delegations focus on administering assessment payment
regulations. The Board did not delegate assessment determination or rate-setting authority to
FDIC officers. Moreover, the delegations do not specifically address how changes in
assumptions or estimates that could have a significant effect on the reserve ratios, and in turn, the
need for assessments, should be handled or communicated. We concluded that an independent
review of the delegations should be conducted to ensure that they clearly define the Board’s
intentions in this regard. To facilitate this independent review, we consider the deputies to the
Board members to be in the best position to make recommendations to the Board on this matter,
in consultation with the FDIC’s Legal Division.

We also noted that the Bylaws include the following delegations to the Director, DIR:

           The Director of the Division of Insurance and Research shall be responsible…for identifying and
           assessing existing and emerging risks to the deposit insurance funds; provide advice and
           assistance to the Board of Directors and the Corporation’s various organizational units on
           economic and financial matters of importance to the Corporation and to the depository
           institutions industry; conduct basic research on current and emerging major problems in areas of
           specific interest to the Corporation; analyze policy alternatives and make recommendations
           thereon; monitor current economic and financial developments, problems, and issues… .

In our opinion, the delegations to the Director, DIR, establish an expectation that the Director
should communicate and advise the Board on financial matters of importance to the Corporation
and the banking industry. The role of the Director, DIR, should be considered in the overall
review of delegations.

Finally, Legal Division representatives noted that several years ago, the Board established a
Master Resolution11 to ensure that significant or potentially controversial issues reached the
Board’s attention. Specifically, the Master Resolution stated that “…the Board hereby reserves
to itself consideration of matters which would establish or change existing Corporation policy,
could attract unusual attention or publicity, or would involve an issue of first impression.” The
Board rescinded the Master Resolution in June 2002 because it was “overly subjective, vague,
and unwieldy and therefore incapable of proper interpretation…” Legal Division representatives

11
     Seal No. 062525, dated May 27, 1997.



                                                      16
contended that the Board’s rescission of this resolution signified that the Board trusted FDIC
officers to use discretion in determining what matters should be presented to the Board. As
discussed later, we are recommending that steps be taken to clarify Board expectations regarding
the types of issues that should be provided to the Board for review and approval.

FDIC Efforts to Communicate Issues to the Board

The Study Group representatives noted that during the initial stages of the Study, the FDIC
General Counsel advised that the authority to make the change in methodology was clearly
vested in the FDIC CFO under Board-approved delegations of authority. Nevertheless, these
representatives indicated that the CFO; COO; General Counsel; and Director, DIR, briefed the
Chairman on numerous occasions about the Study’s status and the Study Group’s
recommendations for adopting a revised methodology, including whether it should be adopted
retroactively or prospectively and the implications thereof. The representatives noted that the
Chairman chose to dispose of the Oakar issue at the staff level, but gave his assent to staff to
brief the deputies to the other Board members as a courtesy.

We concluded that internal discussion among senior FDIC officials involved in the Oakar
estimated insured deposit allocation issue was adequate; however, communications of the issue
with the FDIC Board and Deputies were limited. Following passage of the Sarbanes-Oxley Act
of 2002, the Board issued the Pocket Guide for Directors to provide directors of financial
institutions practical guidance in meeting their duties and responsibilities. The guide discusses
the need for a strong and independent board of directors at financial institutions. Excerpts from
the guide follow.

•   Maintain independence: Effective corporate governance requires a high level of cooperation
    between an institution’s board and its management. Nevertheless, a director’s duty to oversee the
    conduct of the institution’s business necessitates that each director exercise independent judgment in
    evaluating management’s actions and competence.

•   Keep informed: Directors must keep themselves informed of the activities and condition of their
    institution and of the environment in which it operates. They should attend board and assigned
    committee meetings regularly, and should be careful to review closely all meeting materials, auditor’s
    findings and recommendations, and supervisory communications ... Directors should work with
    management to develop a program to keep members informed. Periodic briefings by management,
    counsel, auditors or other consultants are helpful… .

•   Monitor implementation: The board’s policies should establish mechanisms for providing the
    board the information needed to monitor the institution’s operations. In most cases, these
    mechanisms will include management reports to the board. These reports should be carefully framed
    to present information in a form meaningful to the board. … Reports should be provided far enough
    in advance of board meetings to allow for meaningful review. Management should be asked to
    respond to any questions raised by the reports.

These guidelines are equally applicable to the relationship between FDIC management and the
FDIC Board. We identified two opportunities wherein the Corporation could have better
communicated the Oakar issue to the Board.




                                                    17
Semiannual Rate Cases: The Director, DIR, presents a semiannual written case to the Board
that recommends maintaining or changing the fund assessment rate schedule for the ensuing
6-month period. We reviewed the 2005 BIF and SAIF Semiannual Rate Cases that had been
presented in November 2004 and May 2005 and determined that the Oakar issue and revised
estimation methodology were not discussed in the case memoranda. We also confirmed with
DIR representatives that the Oakar issue and revised estimation methodology had not been
discussed at the Board meetings approving the BIF and SAIF rate cases. These cases routinely
discuss a range of estimates for income and expense items that affect BIF and SAIF balances.
Table 5 presents excerpts of items discussed in the November 15, 2004 rate cases.

Table 5: Examples of Items Discussed in the November 15, 2004 BIF and SAIF
Rate Cases (in millions)
Items Discussed in the Rate Case                                 BIF       SAIF
Projected Income From Assessments for the Semiannual Period                              $84       $7
Interest Income                                                                       $1,626     $537
Projected FDIC Operating Expenses Allocated to the Funds                              ($848)   ($136)
Provision for Losses (related to failures, litigation, and other contingent losses)    ($19)    ($56)
Unrealized Gain (Loss) on Available for Sale Securities                               ($295)    ($93)
Comprehensive Income (Loss)                                                             $548     $259
Source: OIG Review of 2005 BIF and SAIF Rate Cases.

At the time of this rate case, the projected BIF and SAIF reserve ratios stood at 1.31 percent and
1.34 percent, respectively. A shift of $96 billion in estimated insured deposits from SAIF to BIF
would have decreased the BIF reserve ratio by 5 basis points12 to 1.26 percent and increased the
SAIF reserve ratio by 15 basis points to 1.49 percent. The largest income and expense item
(interest income) discussed in the rate case had the effect of increasing the BIF and SAIF reserve
ratios by 6 basis points for each fund. Thus, in our view, the Oakar issue could potentially have
had a greater impact on the reserve ratios than most of the other income and expense items that
had been discussed in the rate cases. Further, given the timing of the November 2004 rate case,
we believe that it would have been appropriate for the Study Group to brief the Board about the
ongoing Study and alternatives being considered for addressing the Oakar estimated insured
deposit issue.

The Study Group representatives indicated that the Oakar issue was not included in the
May 2005 rate cases because the FDIC considered the Oakar issue to be a settled, fully-briefed,
and agreed-upon change and noted:

•      There was no controversy with respect to the change internally—including with the Board,
       whose Deputies had been briefed (discussed below).

•      The FDIC had already publicly disclosed the new methodology for calculating estimated
       insured deposits in March 2005 with the publication of the fourth quarter 2004 Quarterly
       Banking Profile.


12
     A basis point is one-hundredth of a percentage point.



                                                             18
•    The prospective adoption of the change as of the fourth quarter of 2004 meant that it had an
     immaterial effect on the estimated insured deposit amounts presented in the two 2005
     semiannual rate cases.

February 2005 Deputies’ Briefing: Although the revised methodology was not included in a
formal board case, FDIC officials had communicated some information about the Oakar
estimated insured deposit issue to Board member representatives. Specifically, on
February 23, 2005, representatives from DIR and the Legal Division provided a briefing on the
Oakar issue to the Deputies for the FDIC Vice Chairman, OTS Director, and the Comptroller of
the Currency.13 The Deputy for the FDIC Director was unable to attend the briefing. This
briefing is significant because it occurred 1 day before the revised methodology was publicly
announced in the Quarterly Banking Profile.

We interviewed DIR and Legal representatives and Deputies who attended the briefing to
understand the nature and content of the briefing and whether the briefing sufficiently
communicated the dollar impact of the Oakar issue and the potential impact on the reserve ratios.
A DIR representative who presented the briefing provided a 2-page briefing document that the
DIR representative believed had been provided to the Deputies to explain the Oakar issue. This
briefing document did not contain any discussion of the dollar or reserve ratio impact. Further,
other meeting attendees had differing recollections regarding the issues discussed at the briefing
and whether the dollar value of the DIR simulation analysis had been discussed.

During our audit, senior FDIC officials involved in the Oakar issue contended that the Bylaws
require that if at least two Board members specifically request that a matter that can be decided
at the FDIC staff and/or Chairman level be referred to the Board, then the matter is placed before
the Board for a final determination. This process is referred to as the “two-member rule.” Those
FDIC officials noted that the February 2005 Deputies’ briefing provided the Deputies an
opportunity to invoke the “two-member rule,” but at the conclusion of the briefing, there were no
unresolved questions, and none of the Deputies requested to have the matter sent forward to the
Board for a vote. However, we noted that the FDIC officials’ contention did not reflect input
from the FDIC Acting Chairman or the other Board members.

In addition, we noted that the Bylaws state that:

        Special meetings of the Board of Directors may be called by the Chairperson or, upon the written
        request of any two members of the Board of Directors, by the Executive Secretary. Reasonable
        notice of any such special meeting shall be given to all members of the Board of Directors who
        can be contacted after a reasonable effort and in sufficient time to permit their attendance or
        participation.

By its terms, this provision references only the calling of a special meeting of the Board, not the
broader interpretation suggested above. Regardless, in our view, the timing of the Deputies’


13
 The composition of the Board has since changed. For example, the FDIC Chairman and Comptroller of the
Currency have left the FDIC and OCC. The former FDIC Vice Chairman is now the Director of OTS. The current
Acting Chairman joined the FDIC as Vice Chairman in August 2005.



                                                    19
briefing and limited nature of the information provided to the Deputies made exercising the
“two-member rule” concerning calling special meetings impractical.

We concluded that the FDIC needs to ensure that it has adequate mechanisms in place for
providing the Board timely, accurate, and complete information about corporate matters and
activities. With recent departures at the Board and FDIC senior management level, it is an
opportune time to revisit processes and mechanisms for keeping Board members informed,
including the Deputies’ briefings and the “two-member rule.”

Communication of the Change in Methodology to the Industry and Public

The FDIC could have done more to publicly communicate the Oakar issue and change in
estimating methodology to the banking industry and the public. The FDIC publicly announced
the change in methodology in the Quarterly Banking Profile. However, the announcement did
not clearly describe the reasons for the change, disparity between the old and new allocation
methods, or the Corporation’s rationale for not addressing the cumulative effect of the prior
allocation method. As a result, the FDIC’s actions lacked transparency. The Oakar change in
methodology announcement was also inconsistent with other public communications involving
estimated insured deposits.

On February 24, 2005, the day following the Deputies’ briefing, the FDIC published the
Quarterly Banking Profile and included the following language in a footnote to communicate the
Oakar revised estimation methodology:

       BIF-member institutions may acquire SAIF-insured deposits, resulting in institutions with some
       deposits covered by both insurance funds. Also, SAIF members may acquire BIF-insured
       deposits. Therefore, the BIF-member and the SAIF-member tables each include deposits from
       both insurance funds. Prior to the fourth quarter of 2004, all SAIF deposits held by BIF-member
       institutions and all BIF deposits held by SAIF members (Adjusted Attributable Deposit Amounts,
       or AADAs) were treated as fully insured. Beginning in the fourth quarter of 2004, the insured
       portions of newly acquired AADAs are based on the estimated insured share of deposits at the
       acquired institution.

The language does not provide sufficient detail about the reasons for the change in methodology
or the financial impact of the change in estimates on the deposit insurance funds or reserve
ratios. Further, the Quarterly Banking Profile notification was not consistent with the FDIC’s
past practices for communicating changes in estimates or restatements of reserve ratio amounts.

•   In August 2002, the FDIC issued a press release, FDIC Reports Second Quarter 2002
    Financial Results for Bank and Thrift Insurance Funds. The press release noted that the BIF
    reserve ratio fell from 1.26 percent at December 31, 2001 to 1.24 percent at March 31, 2002
    as a result of an increase in estimated insured deposits of $75 billion, or 3.1 percent of the
    total estimated insured BIF deposits. The press release attributed the increase in estimated
    insured deposits primarily to a reporting change in quarterly Call Reports that provide the
    source data for estimating insured deposits. This reporting change required banks to report
    the amount of uninsured deposits so that a better estimate of insured deposits could be
    calculated.



                                                 20
•   In July 2004, the FDIC issued a press release, FDIC Revises March 31, 2004, Reserve Ratios
    for Deposit Insurance Funds. The press release announced revisions to the March 2004
    reserve ratios as a result of an FDIC error in allocating estimated deposits between BIF and
    SAIF. Specifically, the FDIC reported that it had overstated BIF-estimated insured deposits
    by $20.5 billion and correspondingly understated SAIF estimated insured deposits. The press
    release indicated that the FDIC properly reallocated the amounts insured by each fund. The
    press release included information on the revised estimated insured deposit amounts and the
    impact of the reallocation on the BIF and SAIF reserve ratios. The press release also stated
    that the revisions would not trigger adjustments to premiums previously paid by insured
    institutions and that the FDIC would review its processes and make appropriate changes.

Both of these press releases involved issues of a lesser magnitude than the Oakar estimated
insured deposit issue. For example, the August 2002 press release involved an increase in BIF-
estimated insured deposits of 3.1 percent. The Oakar issue involved a potential increase in
BIF-estimated insured deposits of 3.7 percent and a corresponding potential decrease in
SAIF-estimated insured deposits of 10.2 percent. The July 2004 BIF overstatement was
$20.5 billion as opposed to the Oakar SAIF potential decrease of $96 billion. In our view, the
two press releases establish a threshold for materiality and an example of the type of information
and how that information should be communicated to the public. Although we are not making a
recommendation, the FDIC should consider our conclusions regarding this aspect of the FDIC’s
handling of the Oakar issue as the Corporation addresses the findings and recommendations
contained in this report.

Recommendations

We recommend that the Acting Deputy to the Acting Chairman, in coordination with the
deputies to the other Board members:

(2) Review the existing Corporate Bylaws, specifically, the powers and duties delegated to the
    CFO and the Directors, DOF and DIR, to ensure that those delegations reflect the Board
    members’ intent and expectations with regard to the deposit insurance fund reserve ratio and
    assessment determination processes, and make recommendations deemed appropriate to the
    Board.

(3) Work with FDIC management to evaluate procedures and practices for keeping Board
    members informed of Corporation matters and activities, and make recommendations
    deemed appropriate to the Board. Consideration should be given to:

    •   the FDIC Board members’ expectations regarding communication and coordination with
        FDIC management, including the types of issues suitable for Board review and approval;
        and

    •   the adequacy of existing mechanisms for providing the board current, accurate and
        complete information needed to monitor FDIC operations, such as the Deputies briefings
        and other informational reports and briefings.




                                                21
Corporation Comments and OIG Evaluation

The Acting Deputy to the Acting Chairman provided a written response dated April 10, 2006, for
recommendations 2 and 3. The response is presented in its entirety in Appendix II. The Acting
Deputy concurred with both recommendations and agreed to form a working committee
composed of deputies to the Board members and FDIC representatives to:

•   review the existing Bylaws, including a review of the powers and duties delegated to FDIC
    senior officials to ensure that those delegations reflect the Board members’ intent and
    expectations with regard to the deposit insurance fund reserve ratio and assessment
    determination processes and make recommendations concerning delegations of authority
    deemed appropriate to the Board, and

•   work with FDIC management to evaluate procedures and practices for keeping Board
    members informed of Corporation matters and activities and communicating matters of
    importance to the public. The working committee will prepare recommendations to the
    Board, giving consideration to Board members’ expectations regarding communication and
    coordination with FDIC management, including the types of issues suitable for Board review
    and approval, and the adequacy of existing mechanisms for providing the Board current,
    accurate and complete information needed to monitor FDIC operations, such as the Deputies
    briefings and other informational reports and briefings.

The Acting Deputy’s response anticipated that the working committee would draft and submit its
recommendations to the Board for review by September 30, 2006.

FDIC’s planned actions are responsive to the recommendations, and we consider
recommendations 2 and 3 resolved. However, these recommendations will remain open until we
have determined that agreed-to corrective actions have been completed and are effective.
Appendix III presents a summary of the DIR Director’s and the Acting Deputy to the Acting
Chairman’s responses to our recommendations.




                                              22
                                                                                                 APPENDIX I



                          OBJECTIVE, SCOPE AND METHODOLOGY

The objective of our audit was to determine whether: (1) DIR accurately determines the funds’
reserve ratios and (2) DOF has adequate controls in place to ensure that the FDIC accurately
calculates, collects, and processes assessments of financial institutions. During our review, we
expanded our objective to include the FDIC’s communication of information relevant to the
reserve ratios to the FDIC Board. We conducted our audit from March 2005 through December
2005 in accordance with generally accepted government auditing standards.

To determine whether the FDIC accurately determines the funds’ reserve ratios, we conducted
interviews with DOF and DIR officials and performed the following procedures:

•    Reviewed applicable policies, procedures, and internal divisional practices relevant to reserve
     ratio calculations.
•    Reviewed FDIC legal opinions related to reserve ratio determinations.
•    Reviewed the applicable FDI Act requirements.
•    Recalculated the reserve ratios for BIF and SAIF for the period January 1997 through June
     2005 using published FDIC and GAO data to verify the mathematical accuracy of
     computations and use of correct data by the FDIC.
•    Examined reserve ratio trends and position in relation to the statutorily prescribed
     1.25 percent DRR.

To determine the accuracy of assessment calculations, we selected a random sample of
43 invoices from the 602 institutions that had paid assessments for the quarter ending
December 31, 2004,14 as recorded in AIMS II. We performed the following audit tests.

•    Obtained sampled institutions’ Call Data from DIR.
•    Verified that DOF properly retrieved assessment base amounts in accordance with
     Section 327.5 of the FDIC Rules and Regulations.
•    Recalculated assessment amounts using the appropriate basis-point percentage and verified
     assessment-base amounts.
•    Verified timeliness of assessment collections through interviews with DOF’s AMS and Cash
     Management Section and review of relevant documentation.
•    Verified assessment invoice availability to assessed institutions in accordance with the DOF
     2005 performance goal of making invoices available through FDICconnect at least 15 days
     prior to the payment due date.

Internal Controls

We examined and assessed the five components of internal control: control environment, control
activities, risk assessment, information and communication, and monitoring. We assessed
internal control through reviews of organization charts, relevant policies and procedures,
interviews with DIR and DOF officials to understand control points in the reserve ratio and

14
   According to FDIC, as of December 31, 2004, 93 percent of BIF and SAIF institutions were classified as “1-A”
(i.e., well-capitalized and financially sound) and were assigned an assessment rate of “zero.”



                                                       23
                                                                                      APPENDIX I



assessment determination processes, and internal studies of those processes. As discussed
throughout our report, we identified control weaknesses in the reserve ratio and assessment
determination processes and made recommendations accordingly.

Compliance with Laws and Regulations

We concluded that the FDIC complied with laws and regulations related to the reserve ratio and
assessment determination processes. We reviewed applicable laws and regulations and
compared those laws and regulations with our understanding of the FDIC’s assessment activities.
We identified no variances from governing laws or regulations.

We did not identify any fraudulent or illegal activities related to the assessment activities during
the scope of our audit. We verified that no allegations of fraud or illegal acts had been brought
to the attention of the Office of Investigations, within the FDIC Office of Inspector General.

Performance Measures

We reviewed the FDIC’s performance measures under the Government Performance and Results
Act, the Corporate Performance Objectives (CPO), and the FDIC’s annual performance plan
(APP). We determined that the 2005 CPOs and APP did not include initiatives related to the
FDIC’s computation of the funds’ reserve ratios or the determination and collection of
assessments from insured institutions. The 2005 CPOs also included a strategic objective to
enact and implement deposit insurance reform legislation. We noted in our report that the
legislation was enacted in February 2006.

Reliance on Computer-based Data

As part of our audit objective, we assessed the reliability of the data in AIMS II. Specifically,
we compared data in AIMS II to data retrieved from external sources for the FDIC’s assessment
billing activities, including institutional Call Report data and assessment rates determined by
FDIC Board actions. We also interviewed DOF officials who are knowledgeable about the data
and who regularly use the data for evaluation and analysis. We examined the data files for
errors, missed values, and dates outside of expected time frames. We corroborated a statistically
random sample of data to source documents. We determined that the data were sufficiently
reliable for the purposes of this assignment and for supporting our audit conclusions.

Other OIG Audits

This audit is one of three audits being performed as part of an overall review of the FDIC’s
Risk-Related Premium System process. The other audits were: Controls Over the Risk-Related
Premium System (Report No. 05-037, dated September 23, 2005) and Consideration of Safety
and Soundness Examination Results and Other Relevant Information in the FDIC’s Risk-Related
Premium System (Report No. 06-008, dated February 17, 2006).




                                                 24
Appendix II
     APPENDIX II




26
     APPENDIX II




27
     APPENDIX II




28
     APPENDIX II




29
     APPENDIX II




30
Appendix II
     APPENDIX II




32
                                                                                                                             APPENDIX III




                                    MANAGEMENT RESPONSE TO RECOMMENDATIONS

     This table presents the management response on the recommendations in our report and the status of the recommendations as of the date of
     report issuance.


      Rec.                                                                             Expected          Monetary   Resolved:a   Open or
     Number            Corrective Action: Taken or Planned/Status                   Completion Date      Benefits   Yes or No    Closedb
               DIR will develop policies and procedures that will:
        1                                                                           September 30, 2006      $0         Yes         Open
               •   require DIR managers to periodically identify, validate, and
                   approve key assumptions and estimates that support the
                   calculation of the reserve ratio, including issues that affect
                   the integrity of the application data that support reserve
                   ratio calculations;
               •   include a schedule of periodic meetings to discuss
                   concerns;
33




               •   require that managers and staff adequately document
                   material discussions, decisions, and testing including
                   alternatives considered but not accepted; and
               •   address the communication of recommendations and
                   decisions to appropriate DIR management.
               FDIC will form a working committee composed of deputies to
        2      the Board members and FDIC representatives to review the             September 30, 2006      $0         Yes         Open
               existing Bylaws, including a review of the powers and duties
               delegated to FDIC senior officials to ensure that those
               delegations reflect the Board members’ intent and expectations
               with regard to the deposit insurance fund reserve ratio and
               assessment determination processes and make
               recommendations concerning delegations of authority deemed
               appropriate to the Board.
                                                                                                                                                    APPENDIX III



      Rec.                                                                                     Expected              Monetary        Resolved:a        Open or
     Number                 Corrective Action: Taken or Planned/Status                      Completion Date          Benefits        Yes or No         Closedb
                   The working committee will work with FDIC management to
           3       evaluate procedures and practices for keeping Board members            September 30, 2006             $0              Yes             Open
                   informed of Corporation matters and activities and
                   communicating matters of importance to the public. The
                   working committee will prepare recommendations to the
                   Board, giving consideration to Board members’ expectations
                   regarding communication and coordination with FDIC
                   management, including the types of issues suitable for Board
                   review and approval, and the adequacy of existing mechanisms
                   for providing the Board current, accurate and complete
                   information needed to monitor FDIC operations, such as the
                   Deputies briefings and other informational reports and
                   briefings.

     a
         Resolved: (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                   (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                   (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
34




                   as management provides an amount.
     b
         Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.
